  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


   MEDENVIOS HEALTHCARE, INC.,
      SUBMITTED CLAIMS FOR
DIABETIC TESTING SUPPLIES WITHOUT
 THE KL MODIFIER IN ACCORDANCE
     WITH MEDICARE BILLING
          REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2013
                                                        A-09-12-02053
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 For calendar year 2011, MedEnvios Healthcare, Inc., submitted claims for diabetic testing
 supplies without the KL modifier in accordance with Medicare billing requirements.

WHY WE DID THIS REVIEW

We performed this review as part of a response to a request from the Senate Special Committee
on Aging that we determine whether durable medical equipment suppliers correctly coded
Medicare claims for diabetic testing supplies delivered by mail to beneficiaries. Medicare
guidance requires suppliers to use the KL modifier on all claims for mail-order diabetic testing
supplies, which are reimbursed at a lower amount than supplies provided at local supplier
storefronts (walk-in supplier).

MedEnvios Healthcare, Inc. (Medenvios), is one of three suppliers that we selected for
review. An analysis of Medicare claim data identified that, in 2011, Medenvios stopped using
the KL modifier on claims for diabetic testing supplies provided to beneficiaries who had
previously received supplies that were claimed with the KL modifier. Because the KL modifier
identifies claims for mail-order supplies, the results of this analysis led us to question why
Medenvios switched from a mail-order to a non-mail-order delivery method for these
beneficiaries. This report covers Medenvios, located in Miami, Florida. Additional reports
covered the two other suppliers that we reviewed.

Our objective was to determine whether Medenvios submitted claims for diabetic testing
supplies without the KL modifier in accordance with Medicare billing requirements.

BACKGROUND

Beneficiaries may obtain diabetic testing supplies from a walk-in supplier or a mail-order
supplier, which delivers the supplies through a common carrier (e.g., the U.S. Postal Service or
FedEx). However, supplies delivered to a beneficiary without use of a common carrier, such as
supplies delivered to a beneficiary’s home in a company-owned vehicle, are not considered
mail-order supplies. The Centers for Medicare & Medicaid Services’ (CMS) Medicare Claims
Processing Manual requires that suppliers use the KL modifier on all claims for mail-order
diabetic testing supplies. On November 29, 2010, CMS finalized a rule to revise the definition
of “mail order item” in Federal regulations to include “any item … shipped or delivered to a
beneficiary’s home, regardless of the method of delivery.” The target implementation date for
the revised definition is July 1, 2013.

WHAT WE FOUND

For calendar year 2011, Medenvios submitted claims for diabetic testing supplies without the KL
modifier in accordance with Medicare billing requirements. All 100 sampled line items were
properly submitted without the KL modifier because Medenvios used company-owned vehicles
to deliver diabetic testing supplies to Medicare beneficiaries at their homes. Under Medicare
requirements in effect until CMS implements the revised definition of a mail-order item, supplies


MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                  i
delivered by company-owned vehicles are not considered mail-order items. Therefore, claims
for these supplies do not require use of the KL modifier. Consequently, this report has no
recommendations.




MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)            ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION......................................................................................................................1

          Why We Did This Review .............................................................................................1

          Objective .........................................................................................................................1

          Background ....................................................................................................................1
                Diabetic Testing Supplies ....................................................................................1
                Medicare Reimbursement of Diabetic Testing Supplies .....................................2
                Walk-In and Mail-Order Suppliers ......................................................................2
                Required Use of KL Modifier for Mail-Order Diabetic Testing Supplies...........2
                Change in Federal Definition of “Mail-Order Item” ...........................................2
                Competitive Bidding Program for Mail-Order Diabetic Testing Supplies ..........3
                MedEnvios Healthcare, Inc. .................................................................................3

          How We Conducted This Review .................................................................................4

RESULTS OF REVIEW ...........................................................................................................4

APPENDIXES

          A: Audit Scope and Methodology................................................................................5

          B: Related Office of Inspector General Reports ........................................................7




MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                                                                iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

We performed this review as part of a response to a request from the Senate Special Committee
on Aging that we determine whether durable medical equipment suppliers correctly coded
Medicare claims for diabetic testing supplies delivered by mail to beneficiaries. Medicare
guidance requires suppliers to use the KL modifier on all claims for mail-order diabetic testing
supplies, which are reimbursed at a lower amount than supplies provided at local supplier
storefronts (walk-in supplier).

MedEnvios Healthcare, Inc. (Medenvios), is one of three suppliers that we selected for
review. An analysis of Medicare claim data identified that, in 2011, Medenvios stopped using
the KL modifier on claims for diabetic testing supplies provided to beneficiaries who had
previously received supplies that were claimed with the KL modifier. Because the KL modifier
identifies claims for mail-order supplies, the results of this analysis led us to question why
Medenvios switched from a mail-order to a non-mail-order delivery method for these
beneficiaries. This report covers Medenvios, located in Miami, Florida. Additional reports
covered the two other suppliers that we reviewed. 1

OBJECTIVE

Our objective was to determine whether Medenvios submitted claims for diabetic testing
supplies without the KL modifier in accordance with Medicare billing requirements.

BACKGROUND

Diabetic Testing Supplies

According to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS).
DMEPOS includes blood glucose monitors that physicians prescribe for diabetics, whether they
are insulin-treated or non-insulin-treated. Part B also covers diabetic testing supplies, such as
blood-testing strips (test strips), lancets, glucose control solutions, and spring-powered lancet
devices for patients for whom the glucose monitor is covered.

To obtain a reading of the blood-glucose level, the patient uses a disposable sterile lancet to draw
a drop of blood, places it on a test strip, and inserts the test strip into a home blood-glucose
monitor. These monitors enable certain patients to better control their blood-sugar levels by
frequently checking those levels and appropriately contacting a physician for advice and
treatment.




1
 Reports A-09-12-02035 (issued March 8, 2013) and A-09-11-02073 (issued January 16, 2013) cover the two other
suppliers.


MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                               1
Medicare Reimbursement of Diabetic Testing Supplies

Medicare’s fee schedule for DMEPOS establishes the maximum amounts reimbursed to
suppliers for diabetic testing supplies. The amount allowed by Medicare for payment for an
individual item, such as a box of test strips, is equal to the lesser of the fee schedule amount or
the amount charged by a supplier. Medicare pays the beneficiary or the supplier the amount
allowed for payment, less the beneficiary share (i.e., deductibles and coinsurance). For a
supplier to be reimbursed by Medicare for a claim for any quantity of diabetic testing supplies,
the supplier is required to maintain supporting documentation, including but not limited to a
physician order and proof of delivery.

Walk-In and Mail-Order Suppliers

Beneficiaries may obtain diabetic testing supplies from a walk-in supplier or a mail-order
supplier. A walk-in supplier has a physical location where beneficiaries or their caregivers can
pick up diabetic testing supplies. A mail-order supplier receives requests for supplies from
beneficiaries remotely (e.g., by mail, phone, or email or through a Web site) and delivers the
supplies through a common carrier (e.g., the U.S. Postal Service or FedEx). Supplies delivered
to a beneficiary without use of a common carrier, such as supplies delivered to a beneficiary’s
home in a company-owned vehicle, are not considered mail-order supplies. 2

Required Use of KL Modifier for Mail-Order Diabetic Testing Supplies

The Centers for Medicare & Medicaid Services’ (CMS) Medicare Claims Processing Manual
(Pub. No. 100-04) requires that suppliers use the KL modifier 3 on all claims for diabetic testing
supplies delivered by mail to Medicare beneficiaries (chapter 36, section 20.5.4.1). When the
KL modifier was introduced on July 1, 2007, it was used only as an informational modifier to
identify mail-order supplies, with no impact on the Medicare reimbursement amount. However,
the Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275, required a
9.5-percent reduction in the fee schedule amounts for certain items, including diabetic testing
supplies delivered by mail on or after January 1, 2009, in any geographical area (section
154(a)(2)). Effective January 1, 2009, the KL modifier became a pricing modifier, reducing the
reimbursement for diabetic testing supplies delivered by mail.

Change in Federal Definition of “Mail-Order Item”

On July 13, 2010, CMS issued a notice of proposed rulemaking in the Federal Register to revise
the definition of “mail order item.” The proposed rule states that CMS “discovered that

2
 Facts about the DMEPOS Competitive Bidding Program Round 1 Rebid: Mail-Order Diabetic Supplies. Issued
September 25, 2009, by Palmetto GBA, Competitive Bidding Implementation Contractor.
3
 A modifier is either alphanumeric or two letters reported with a Healthcare Common Procedure Coding System
(HCPCS) code and is designed to give Medicare and commercial payers additional information needed to process a
claim. (HCPCS codes are used throughout the health care industry to standardize coding for medical procedures,
services, products, and supplies.) Medicare requires use of the KL modifier for only the following mail-order
diabetic testing supplies: test strips, glucose control solutions, lancet devices, lancets, and replacement batteries for
blood glucose monitors.


MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                                           2
suppliers … tried to adopt certain approaches to circumvent the mail order definition. … For
example, some mail order suppliers considered purchasing a fleet of cars to deliver [diabetic
testing supplies] to the beneficiary’s home so as not to be considered a mail order supplier”
(75 Fed. Reg. 40040, 40214). These suppliers would be able to increase their level of
reimbursement because they would be paid the same amount as walk-in suppliers.

CMS finalized the rule on November 29, 2010, to include the following definition of a
mail-order item at 42 CFR § 414.402: “ … any item (for example, diabetic testing supplies)
shipped or delivered to the beneficiary’s home, regardless of the method of delivery” (75 Fed.
Reg. 73170, 73623). This definition will be effective when CMS implements the national
mail-order competition of the DMEPOS Competitive Bidding Program (competitive bidding
program) for diabetic testing supplies, whose target implementation date is July 1, 2013.

Competitive Bidding Program for Mail-Order Diabetic Testing Supplies

On January 1, 2011, CMS launched the first phase of the competitive bidding program, in which
DMEPOS suppliers competed to become Medicare-contracted suppliers by submitting bids to
furnish certain items in competitive bidding areas (CBA). 4 CMS awarded contracts to some
suppliers to provide certain DMEPOS items in CBAs. Beneficiaries who permanently resided in
a CBA could choose to obtain diabetic testing supplies from either a Medicare-contracted
mail-order supplier or a walk-in supplier. Medicare does not cover mail-order diabetic testing
supplies delivered by noncontracted suppliers to Medicare beneficiaries residing in a CBA.

CMS plans to implement the second phase and the national mail-order competition of the
competitive bidding program at the same time (July 1, 2013). The national mail-order
competition includes only mail-order diabetic testing supplies and will not be limited to certain
CBAs. For this competition, CMS will award supplier contracts for delivery of diabetic testing
supplies across the Nation to beneficiaries who elect to have these supplies delivered to
them. Medicare will reimburse only contracted suppliers for mail-order diabetic testing supplies.

MedEnvios Healthcare, Inc.

Medenvios is a DMEPOS supplier based in Miami, Florida, and primarily focuses on supplying
diabetic testing supplies to the Hispanic community in the United States. Medenvios is not a
contracted supplier for the first phase of the competitive bidding program.

Medenvios mails diabetic testing supplies to customers who do not reside in a CBA and uses
company-owned vehicles to deliver these supplies to customers who reside within driving
distance of its office, which is located in the Miami CBA in Florida. 5




4
 CBAs are defined by specific zip codes related to Metropolitan Statistical Areas, which include major cities and the
surrounding suburbs.
5
    The Miami (Miami–Fort Lauderdale–Pompano Beach, Florida) CBA is located in South Florida.


MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                                   3
HOW WE CONDUCTED THIS REVIEW

For calendar year (CY) 2011, Medenvios received Medicare Part B payments of $2,110,313 for
42,746 line items without the KL modifier for test strips, glucose control solutions, lancet
devices, and lancets provided to Medicare beneficiaries. A line item represented an individual
type of diabetic testing supply included on a claim. We reviewed a random sample of 100 of
these line items; all of these line items were for beneficiaries residing in the Miami CBA.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains a list
of related Office of Inspector General reports on Medicare claims for diabetic testing supplies.

                                        RESULTS OF REVIEW

For CY 2011, Medenvios submitted claims for diabetic testing supplies without the KL modifier
in accordance with Medicare billing requirements. All 100 sampled line items were properly
submitted without the KL modifier because Medenvios used company-owned vehicles to deliver
diabetic testing supplies to Medicare beneficiaries at their homes. Under Medicare requirements
in effect until CMS implements the revised definition of a mail-order item, targeted for July
2013, supplies delivered by company-owned vehicles are not considered mail-order items.
Therefore, claims for these supplies do not require use of the KL modifier. Consequently, this
report has no recommendations.




MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                 4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CY 2011, Medenvios received Medicare Part B payments of $2,110,313 for 42,746 line
items without the KL modifier for test strips, glucose control solutions, lancet devices, and
lancets provided to Medicare beneficiaries. A line item represented an individual type of
diabetic testing supply included on a claim. We reviewed a random sample of 100 of these line
items; all of these line items were for beneficiaries residing in the Miami CBA. We limited our
review of the sampled line items to determining Medenvios’s compliance with Medicare billing
requirements for use of the KL modifier. We did not review compliance with other
requirements, such as presence of a physician order.

We did not review the overall internal control structure of Medenvios. Rather, we limited our
review of internal controls to those that were significant to the objective of our audit.

We conducted our audit from June 2012 to March 2013 and performed fieldwork at Medenvios’s
office in Miami, Florida.

METHODOLOGY

To accomplish our audit objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    reviewed Medenvios’s policies and procedures for (1) receiving and processing orders
         for diabetic testing supplies, (2) maintaining supporting documentation, and
         (3) processing Medicare claims;

    •    interviewed Medenvios officials to obtain an understanding of Medenvios’s procedures
         for (1) receiving and processing orders for diabetic testing supplies, (2) maintaining
         supporting documentation, (3) ensuring that the KL modifier was used on Medicare
         claims for mail-order supplies, and (4) processing Medicare claims;

    •    analyzed CY 2011 Medicare paid claim data to identify line items that Medenvios
         submitted without the KL modifier for test strips, glucose control solutions, lancet
         devices, and lancets;

    •    created a sampling frame of 42,746 line items for test strips, glucose control solutions,
         lancet devices, and lancets without the KL modifier and randomly selected a sample of
         100 line items;

    •    obtained supporting documentation from Medenvios for each sampled line item and
         reviewed the documentation to determine whether Medenvios should have used the KL
         modifier when it submitted claims for diabetic testing supplies delivered by mail; and



MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                    5
    •    shared the results of our review with Medenvios.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)              6
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                               Date
                        Report Title                                       Report Number      Issued
Advanced Diabetes Supply Submitted Claims for Diabetic                     A-09-12-02035     03/08/13
Testing Supplies Without the KL Modifier in Accordance With
Medicare Billing Requirements

Neighborhood Diabetes, Inc., Submitted Claims for Diabetic                  A-09-11-02073    01/16/13
Testing Supplies Without the KL Modifier in Accordance With
Medicare Billing Requirements

Supplier Billing for Diabetes Test Strips and Inappropriate                OEI-04-11-00760   11/07/12
Supplier Activities in Competitive Bidding Areas

Medicare Contractors Lacked Controls To Prevent Millions in                 A-09-11-02027    06/13/12
Improper Payments for High Utilization Claims for Home
Blood-Glucose Test Strips and Lancets

Review of Medicare Claims for Home Blood-Glucose Test                       A-09-08-00044    02/17/11
Strips and Lancets – Durable Medical Equipment Medicare
Administrative Contractor for Jurisdiction B

Review of Medicare Claims for Home Blood-Glucose Test                       A-09-08-00046    02/04/11
Strips and Lancets – Durable Medical Equipment Medicare
Administrative Contractor for Jurisdiction D

Review of Medicare Claims for Home Blood-Glucose Test                       A-09-08-00045    01/21/11
Strips and Lancets – Durable Medical Equipment Medicare
Administrative Contractor for Jurisdiction C

Medicare Market Shares of Mail Order Diabetic Testing Strips               OEI-04-10-00130   12/02/10

Review of Medicare Claims for Home Blood-Glucose Test                       A-09-08-00043    08/30/10
Strips and Lancets – Durable Medical Equipment Medicare
Administrative Contractor for Jurisdiction A




MedEnvios Healthcare, Inc.’s Claims for Diabetic Testing Supplies (A-09-12-02053)                       7
